TRUSTONE FINANCIAL VISA AGREEMENT
AND TRUTH-IN-LENDING DISCLOSURE
Effective January 1, 2021

Visa Platinum & Platinum Rewards Credit Cards
TruStone Financial Credit Union

M-132816

advance, credit or other slips will not be returned with the monthly statement.
You will keep the copy of the slips furnished at the time of the transaction in
order to verify the monthly statement. There is a limitation of 15 transactions
per day.

Please Retain For Personal Records.
This is your Credit Card Agreement and Truth-In-Lending disclosure. Please read
and file with your records. This Agreement and disclosure, required by law, is
designed to define the guidelines concerning your Account(s).

You should not reveal your PIN to anyone else. Do not write the PIN on the card.
4. Finance Charge
Cash Advances
The FINANCE CHARGE on cash advances begins to accrue on the date you obtain
the cash advance.

In this Agreement, “Agreement” means this Consumer Credit Card Agreement.
“Disclosure” means the Credit Card Account Opening disclosure. The Account
Opening Disclosure is included with this Consumer Credit Card Agreement and is
part of the agreement. In this Agreement the words “you” and “your” mean
each and all of those who apply for the Credit Card. “We,” “us”, and “ours”
mean TruStone Financial, a credit union with its main office in Plymouth,
Minnesota. “Credit Card” and “Card” mean the Credit Card and any duplicates
and renewals we issue. “Account” means your Credit Card Line of Credit Account
with the credit union; and “Credit Union” means the Credit Union whose name
appears on this Agreement. Line of Credit may also be called “Credit Limit” in
this agreement and in your monthly Statement.

The FINANCE CHARGES for a billing cycle are computed by applying the monthly
Periodic Rate to the average daily balance during the billing cycle, which is
determined by dividing the sum of the daily balances during the billing cycle by
the number of days in the cycle. Each daily balance is determined by adding to
the previous balance (the outstanding balance of your Account at the beginning
of the billing cycle), any new cash advances received, and subtracting any
payments as received or credits as posted to your Account, but excluding any
unpaid FINANCE CHARGES.

By Keeping The Credit Card, Signing It, Using It, Or Permitting Another
To Use It, You Agree To All The Terms And Conditions Of This
Agreement.

Credit Purchases
The FINANCE CHARGE on credit purchases begins to accrue on the date of
purchase. You can avoid incurring an additional FINANCE CHARGE appearing on
your next statement if a) we receive your payment of the total balance due by
the “Payment Due Date” shown on your current statement and b) there is no
purchase in the current billing period. If there is a purchase in the current billing
period a FINANCE CHARGE will appear on your next statement and payment of
that FINANCE CHARGE can be avoided if you pay the total balance due by the
“Payment Due Date” shown on the statement.

1. Effect of Agreement
This Agreement is the contract which applies to all transactions on your Account
even though the sales, cash advance, or credit card slips you sign or receive may
contain different terms.
2. Responsibility
If we issue a Card to you, you agree to repay all debts and the FINANCE CHARGE
from the use of your Card and Account. You cannot transfer or assign your
Account to another person. You agree that you will not authorize to permit any
other person to use your Card. If another does use your Card or Card number
with your permission, you are responsible for charges made by anyone else to
whom you give the Card or Card number to, and this responsibility continues
until the Card is recovered. You cannot avoid responsibility by notifying us, but
we will close the Account as soon as possible for new transactions after you
request and return all Cards. If this is a joint Account, each Account holder is
both individually and jointly obligated for all payments due under this
Agreement. Your obligation to pay the Account balance continues even though
an agreement, divorce decree or other court judgment may direct you or
another person to pay the Account. Any person using the Card is jointly
responsible with you for charges he or she makes, but if the person signs the
Card, he or she becomes a party to this Agreement and is jointly responsible for
all charges on the Account, including yours. You agree to notify us within ten
(10) days of any change in your name, residence, or mailing address.

The FINANCE CHARGES for a billing cycle are computed by applying the monthly
Periodic Rate to the average daily balance of credit purchases, which is
determined by dividing the sum of the daily balances during the billing cycle by
the number of days in the cycle. Each daily balance is determined by adding to
the previous balance of credit purchases any new credit purchases posted to
your Account and subtracting any payment as received and credits as posted to
your Account, but excluding any unpaid FINANCE CHARGES.
5. Monthly Statements & Payments
If you have a balance in excess of $1.00, we will mail to you, on a date selected
by us, a periodic monthly statement listing all amounts you owe us on this
Account.
Every month you must pay, in United States dollars and drawn on a financial
institution located in the United States, at least the Minimum Payment required
within 25 days of your statement closing date as shown on your monthly
statement. You may, of course, pay more frequently, pay more than the
Minimum Payment, or pay the Total New Balance in full, and reduce the
FINANCE CHARGE by doing so. The Minimum Payment will either be 1) 2% of
your total New Balance or $15 whichever is greater, or 2) your Total New
Balance, if it is less than $15 and 3) any portion of the Minimum Payment(s)
shown on prior statement(s) which remains unpaid. In addition, at any time your
Total New Balance exceeds your Credit Limit, you must immediately pay the
excess upon our demand. Subject to applicable law, your payments may be
applied to what you owe the Credit Union in any manner the Credit Union
chooses. However, payments made in excess of the Minimum Payment, will be
applied first to the balance with the highest interest rate, then successively to
each lower interest rate until the excess payment amount is exhausted.

3. Using the Card
You understand that the use of your Credit Card will constitute
acknowledgement of receipt and agreement to the terms of this Credit Card
Agreement. To make a purchase or cash advance, there are two alternative
procedures that you may follow. One is for you to present the Card to a
participating VISA plan merchant, to us, or to another financial institution, and
sign the sales or cash advance draft which will be imprinted with your Card. The
other is to complete the transaction by using your Personal Identification
Number (PIN) together with the Card at an Automated Teller Machine or other
type of electronic terminal that provides access to the VISA system. You may
also use your Visa Account for online and phone advances. Online advances may
be completed through Online Banking. Phone advances may be completed by
calling Telexpress. The monthly statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made. Sales, cash

1

TRUSTONE FINANCIAL VISA AGREEMENT
AND TRUTH-IN-LENDING DISCLOSURE
Effective January 1, 2021

We may accept late payments, partial, and payments marked “Payment in Full”
or similar language without waiving or losing any right to demand payment as
set forth in this Agreement.

M-132816

be responsible for all amounts and charges incurred in connection with the
transaction.

You will be responsible for all matters shown on each monthly statement unless
you notify us in writing of any dispute within 60 days after statement date in the
manner required by the notice entitled “Your Billing Rights: Keep This Notice For
Future Use” included in this Agreement.

12. Returns and Adjustments
Merchants and others who honor the Card may give credit for returns or
adjustments, and they will do so by issuing a credit which will be posted to your
Account. If your credits and payments exceed what you owe us, we will apply
this credit balance against future purchases and cash advances to your Account.
If this credit balance is $1.00 or more, we will refund it per your written request.
Credit refunds will reduce your balance owed.

6. Default
You will be in default if you fail to make any Minimum Payment within 25 days
after the monthly statement closing date. You will also be in default if 1) your
ability to repay us is materially reduced by a change in your employment or
financial standing or an increase in your obligation, 2) there are bankruptcy or
insolvency proceedings involving you, 3) you die, 4) you make a
misrepresentation in connection with your Account, 5) you default on any
obligation to us, under this Agreement or otherwise, you fail to comply with the
terms of this Agreement, 6) you cancel your membership with us, 7) you exceed
your Credit Limit or 8) there is an attachment, levy or garnishment against you
or your property. We have the right to demand immediate payment of your full
Account balance if you are in default. If permitted by law, you will also be
required to pay our collection expenses, including court costs and reasonable
attorney’s fees. If you are in default, we may close your Account and cancel all
Cards issued on your Account without any notice to you.

13. Foreign Transactions
Purchases and cash advances you make in foreign countries and foreign
currencies will be billed to you in U.S. dollars. The conversion to dollars will be
made according to the operating regulations for international transactions
established by VISA International, Inc. The conversion rate billed to you may
differ from the published rate in effect on the day that you made the transaction
or it was posted to your Account. You agree to pay us the amount as converted.
The exchange rate between the transaction currency and the billing currency
used for processing international transactions is a rate selected by VISA from the
range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate Visa itself receives or the
government-mandated rate in effect for the applicable central processing date.

7. Lost Card Notification
If you believe your Card has been lost or stolen or is being used without your
permission, you will immediately call us at (800) 862-1998. You may follow up in
writing to: TruStone Financial, PO Box 1260, Minneapolis, MN 55440-1260.

14. Cancellation
Any Card or other credit instrument issued to you is the property of TruStone
Financial, and must be returned to us immediately upon demand or upon notice
of cancellation or withdrawal of the Account.

8. Credit Limit
You agree not to let the Account balance exceed this approved Credit Limit or to
use your Account for a purchase or advance if your total unpaid balance of
purchases, advances, FINANCE CHARGES, and fees will exceed your Line of
Credit. We will refuse to accept any transaction on your Account which would
cause you to exceed your Line of Credit. Each payment you make on the Account
will restore your Credit Limit by the amount of payment which is applied to the
principal. You agree that we may change the Credit Limit at any time, and we will
notify you of any such change. We may, at our discretion, increase your Credit
Limit from time to time upon notifying you in writing of the increase. You may
request an increase in your Line of Credit by calling or writing us.

You may cancel your Account at any time by notifying us in writing at the
address on your monthly statement and cutting your Card(s) in half and
returning all Cards and Convenience Checks issued on your Account. Even after
your Account is closed, you remain responsible for paying any amounts you owe
on the Account according to the terms of this Agreement. If this is a joint
Account, either of you may request that this Account be closed and we will
honor that request without us having any liability to either of you. We can
suspend your Account privileges or cancel your Account at any time, with or
without cause or notice. Your Credit Card privileges may be revoked due to
negligence. Such termination by us does not affect your obligation to pay any
amounts you owe on the Account according to the terms of this Agreement.

9. Credit Information
At any time we may request, and you will give, credit, employment, financial and
other information to us as we deem necessary to reevaluate your Account or
credit worthiness. You authorize us to investigate your credit standing at any
time and you authorize us to disclose information regarding your Account to
credit bureaus and other creditors who ask us about your credit standing. We
will take responsible steps to protect your rights under Federal and State law.

15. Skip Payment Option
At the option of TruStone Financial, a minimum payment may be waived during
certain billing cycles. If such a waiver occurs, FINANCE CHARGES will continue to
apply to the Account during the skip payment billing cycle. Beginning with the
billing cycle following the skip payment, all provisions of the Agreement shall
apply.
16. Merchant Credit Authorizations
We are not responsible for the refusal of any VISA plan merchant or financial
institution to honor your Card or Convenience Check, or for goods or services
you purchase or lease using your Account, except as required by law.

10. CU Rewards Program
If you are participating in a Visa Rewards Card program, we have provided you
with a separate written disclosure stating additional Terms and Conditions on
your Rewards Card program, and that disclosure is made part of this Agreement
by this reference. A full set of Program Rules and Conditions are available on the
CURewards website at www.curewards.com. The Visa Platinum card is not
eligible for rewards.

Some purchases will require our prior authorization. We may not be able to
authorize a transaction, even if you have sufficient available credit. We will not
be liable to you if this should occur.
17. Security Interest
You grant us a security interest in all individual and joint share and/or deposit
accounts you have with us now and in the future to secure your Credit Card
Account. You may withdraw these shares unless you are in default. When you
are in default, you authorize us to apply the balance in these accounts to any

11. Illegal Transactions
You agree that you will not use your Card for any transaction that is illegal under
applicable federal, state or local law. Even if you use your Card for an illegal
transaction, or for any unlawful purpose (for example, online gambling) you will

2

TRUSTONE FINANCIAL VISA AGREEMENT
AND TRUTH-IN-LENDING DISCLOSURE
Effective January 1, 2021

amounts due. For example, if you have an unpaid Credit Card balance, you agree
we may use funds in your account(s) to pay any or all of the unpaid balance.
Shares and deposits in an IRA or any other account that would lose special tax
treatment under state or federal law if given as security are not subject to the
security interest you have given in your shares and deposits.

M-132816

•TruStone Financial, PO Box 1260 Minneapolis, MN 55440-1260.
In your letter give us the following information:
• Account Information: Your name and Account number.
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.

18. Fees
Please refer to the TruStone Financial Fee Schedule for applicable fees.
19. Other Provisions
A. No waiver. We may choose to delay enforcing or waive any of our rights
under this Agreement without affecting our other rights. If we waive a right, we
do not thereby waive the same right in other situations.

You must contact us:
•Within 60 days after the error appeared on your statement.
•At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.

B. Severability. If any provision of this Agreement is unenforceable, all other
provisions of this Agreement are still valid and enforceable.

You must notify us of any potential errors in writing. You may call us at (800)
862.1998, but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question.

C. Entire Agreement. This Agreement embodies the entire agreement and
understanding between you and us and supersedes all agreements, statements
and understandings, unless otherwise expressly stated.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain why we believe the bill was correct.

D. Change in Terms of Your Account. We can change any terms of your Account
at any time. When required by law, we will provide you with advanced notice of
changes. Any changes will apply to the current balance of your Account as well
as future balances, to the extent permitted by law and we indicate in our notice.
You may choose to accept a change by keeping your Account open or decline
certain changes by closing your Account prior to the effective date of the change
and repaying any outstanding balance according to the old terms. Your decision
to keep your Account open after any change will constitute your agreement to
the change. We may sell or otherwise transfer your Account and any amount
owed by you to another creditor at any time. If we do, this Agreement will
remain in effect.

While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your Credit Limit.

20. Automatic Payment
If you have requested an automatic payment to be made from any financial
institution, all payments due will automatically be deducted from your
designated savings or checking account on or before your due date. If your
designated account does not contain sufficient funds on the payment due date,
you will be responsible for the payment and any returned items fees associated
with the payment.

After we finish our investigation, one of two things will happen:
• If we find that we made a mistake: You will not have to pay the amount in
question, or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date that payment it is due. We
may then report you as delinquent if you do not pay the amount we think you
owe.

21. Governing Law
This Agreement and your Account shall be governed by the state laws in which
your account resides and the laws of the United States.

If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.

22. Successors & Assigns
You agree TruStone Financial may at any time assign or transfer to another
person your Account, your Account balance, on this Agreement. You will not
assign or transfer any of your rights or duties under this Agreement. This
Agreement is binding upon your heirs and legal representatives.
23. Notice To Married Wisconsin Residents
No provision of a marital property agreement, unilateral or court decree
applying to marital property adversely affects the interest of the creditor unless
the creditor, prior to the time the credit is granted, is furnished a copy of the
agreement, statement or decree or has actual knowledge of the adverse
provision when the obligation to the creditor is incurred. You are married and
this Account is being opened in the interest of your marriage or family.

If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your Credit Card, and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the purchase.

24. Your Billing Rights—Keep This Notice For Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based on

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:

3

TRUSTONE FINANCIAL VISA AGREEMENT
AND TRUTH-IN-LENDING DISCLOSURE
Effective January 1, 2021

an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your Credit Card
Account do not qualify.
3. You must not yet have fully paid for the purchase.

M-132816

If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
• TruStone Financial, PO Box 1260 Minneapolis, MN 55440-1260
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you own an amount and you do not pay, we may report you as
delinquent.
25. Liability For Unauthorized Use
If you notice the loss or theft of your Credit Card or a possible unauthorized use
of your Card you should write to us immediately at: TruStone Financial PO Box
1260 Minneapolis, MN 55440-1260 or call us at (800) 862.1998. You will not be
liable for unauthorized use that occurs after you notify us of the loss, theft or
possible unauthorized use unless you were grossly negligent in the handling of
your Account or Card. You may, however, be liable for unauthorized use that
occurs before your notice to us. In any case, your liability will not exceed $50 or
the amount of unauthorized use, whichever is less. If unauthorized withdrawals
are made using your card or card number you may be required to sign a Claim of
Fraud or Forgery form. You agree to cooperate in any investigation of
unauthorized use.
26. Copy Received
You acknowledge receipt of a copy of this Agreement.

4

